February 20, 2002

MEMORANDUM FOR:               EMILY STOVER DeROCCO
                              Assistant Secretary for
                               Employment and Training


FROM:                         ELLIOT P. LEWIS
                              Acting Deputy Inspector General
                               for Audit


SUBJECT:                      Audit of Iroquois Job Corps Center Property Taxes
                              November 1, 1999 Through October 31, 2000
                              Final Letter Report Number 02-02-206-03-370


We have completed an audit of the Iroquois Job Corps Center (IJCC) for the period November 1,
1999 through October 31, 2000. The audit objective was to determine if Satellite Services, Inc.,
claimed property taxes for the IJCC under Contract Number 2-99-JC-23-36. We found that no
property taxes were claimed and paid by Satellite Services, Inc., for the IJCC. We are making no
recommendations and no response is necessary.

If you have any questions or wish to discuss this issue further, please contact Richard H. Brooks,
Regional Inspector General for Audit at (212) 337-2577.


Background

Job Corps was established in 1964 and is presently authorized under Title I, Subtitle C of the
Workforce Investment Act of 1998. The overall purpose of the program is to provide
economically disadvantaged youths aged 16 to 24 with the opportunity to become more
responsible, employable citizens. With annual funding more than $1 billion, Job Corps is the
largest Federal youth employment and training program. Job Corps provides total support for
participants including basic education and vocational classes; dental, medical and eye care; social
skills training; meals; recreational activities; counseling; student leadership activities; and job
placement services.
The Employment and Training Administration (ETA), awarded Contract Number 2-99-JC-23-36
to Satellite Services, Inc,. to operate the IJCC for the period November 1, 1999 through
October 31, 2001, with three additional option years.

The IJCC was formerly a civilian conservation center operated by the United States Department
of Interior’s Fish and Wildlife Service. The center consists of 21 buildings, plus dormitory and
gymnasium, on approximately 28 acres of land. It is located in Shelby, New York, and is part of
the Iroquois National Wildlife Refuge.


Objective

The audit objective was to determine if Satellite Services, Inc., claimed property taxes for the
IJCC under Contract Number 2-99-JC-23-36.


Scope and Methodology

We reviewed charges to utilities, and other facility maintenance claimed under the contract
number 2-99-JC-23-36 for the period November 1, 1999 through October 31, 2001. We obtained
an understanding of the I JCC’s internal controls through inquiries with appropriate personnel,
inspection of relevant documentation, and observation of operations. The nature and extent of
our testing were based on the risk assessment.

We examined center operation expenses, general ledgers and supporting documentation including
vouchers and invoices. We used judgmental sampling techniques to test individual account
transactions. We sampled $280,857 or 64 percent of reported utilities, fuel, and maintenance
expenses. We did not audit performance measurements of IJCC.

The audit was performed using criteria we considered relevant in evaluating the reasonableness,
allowability and allocability of claimed expenses. Criteria included Title 20 of the Code of Federal
Regulations, Federal contract cost principles set forth in the Federal Acquisition Regulation, Part
31 and the Job Corps Policy and Requirements Handbook (PRH). Also, other requirements in the
contract were used as criteria in evaluating the allowability of claimed expenses.

We conducted our audit in accordance Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objective of the audit. We conducted fieldwork from October 30, 2001 to
November 2, 2001, at the IJCC located in Shelby, New York.


                                              2
Audit Results

We found that no property taxes were claimed and paid by Satellite Services, Inc., for the IJCC
during the period November 1, 1999 through October 31, 2000. We are making no
recommendations and no response is necessary.




                                             3
